             TIRNO-95-D-00061 and TIRNO-00-D-00013, Report
              on Audit of Incurred Costs for Fiscal Year 2002

                                 August 2004

                     Reference Number: 2004-1C-159




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                           August 26, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE



       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               TIRNO-95-D-00061 and TIRNO-00-D-00013, Report on Audit of
                              Incurred Costs for Fiscal Year 2002 (Audit #20041C0241)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s June 12, 2003,
       revised certified final indirect cost rate proposal and related books and records for
       reimbursement of Fiscal Year 2002 incurred costs. The purpose of the examination
       was to determine the allowability and allocability of direct and indirect costs and to
       establish audit-determined indirect costs rates for the period January 1, 2002, through
       December 31, 2002. The proposed rates apply primarily to flexibly priced contracts.
       The DCAA examination of the incurred cost rate proposal disclosed questioned indirect
       expenses allocable to several indirect cost pools, questioned direct travel costs, and
       adjusted claimed base amounts. The DCAA indicated the contractor does not concur
       with the questioned corporate legal expenses. Additionally, the DCAA believes indirect
       costs questioned are subject to penalties provided in the Federal Acquisition
       Regulation.
       The DCAA stated that the contractor’s proposed indirect rates are not acceptable as
       proposed. However, except for potential adjustments that result from assist audits
       concerning unresolved subcontract costs, the DCAA indicated direct costs are
       acceptable as adjusted by the examination. Direct costs not questioned are
       provisionally approved pending final acceptance.
       The DCAA has not received the results of the assist audits of subcontract costs and
       administrative closeout. The assist audits will not affect the audit-determined indirect
       expense rates but may affect the allowable direct subcontract costs. Therefore, the
       DCAA qualified its audit report. Upon receipt of assist audit reports, the recommended
                                           2

subcontract costs will be reconciled with the claimed subcontract costs and
supplemental reports will be issued as required.
The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
